                -     CLOSEOUT FOR M95060024


                                                    w
     This case came to OIG on June 19, 1995, when we received a
letter from Dr,              (the complainant) of the
                          The complainant alleged that
                             (the subject) had committed misconduct
by claiming to be the inventor of a certain analytic method (the
technique) that the complainant himself claims to have originated.
The complainant alleged that the subject persisted in his false
priority claim even after the complainant had pointed up the
subject's error,
     The complainant supplied OIG with numerous published works
that, in his view, supported his priority claim, He also supplied
relevant unpublished scholarly correspondence, copies of his
correspondence with the subject on this issue, and materials from
an inquiry performed by the subject8s university in response to the
complainantls allegation of misconduct. Included in the latter
materials were the opinions of an unnamed expert scientist whom the
university consulted.
     In his discipline (to which the technique is more
intellectually important than it is in other fields), the subject
is widely credited with originating the technique and developing a
formal account of its relationship to existing knowledge. He also
popularized the technique in the discipline and gave the technique
its name. The complainant, in an introductory textbook intended
for students in another discipline, published some ideas and
examples that in his view amount to the "inventionm of this now
important technique.
     The complainant alleged that the subject8s claims in a recent
book1 to be ninventorn of the technique and to have "introducedn it
were serious deviations from accepted practices. The subject ' s
university, aided by an expert consultant, concluded that the
allegation lacked substance. OIG consulted another expert in the
field, and he agreed with the university's expert. Both concluded
that the complainant8s work was a precursor of the subject's
contributions, but that the subject s decisive advances were to
highlight the general applicability of the technique and to tie the

      'The book is
                 published?n
%ppo?t,   and the senior author has received numerous NSP awards.
                           page 1 of 2                      M95-24
                      CLOSEOUT FOR 2495060021

use of the technique to the body of theory in the subject's
discipline. OIG decided that the subject's priority claim had
sufficient factual basis that it could not be considered misconduct
for him to persist in making it.
     The complainant further alleged that the subject's book
incorrectly described the complainant's early work relating to the
technique.   OIG determined that the alleged inaccuracy in the
subject's citation of the complainant's work would not rise to the
level of misconduct.
     This inquiry is closed and no further action will be taken on
this case.




                           page 2 of 2
